U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


         FOLLOWUP OF TRAVEL BY
           PRINCIPAL OFFICIALS,
    U.S. DEPARTMENT OF THE INTERIOR

             REPORT NO. 97-I-930
                   JUNE 1997
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




TO:

FROM:


SUBJECT SUMMARY:
                            by Principal Officials, U.S. Department of the Interior”
                            ((No. 97-I-930)

Attached for your information is a copy of the subject final report. The objective of the
audit was to determine whether the Department of the Interior had satisfactorily
implemented the recommendations made in our 1993 audit report and whether any new
recommendations were warranted.

Of the five recommendations made in our prior report, we found that three recommendations
had been fully implemented and that two recommendations had been partially implemented.
Despite these actions, principal officials continued to submit travel vouchers that contained
errors and that were not in fill compliance with the Federal Travel Regulation. Although

2.7 percent of the $477,244 tested), approximately one of every five vouchers we reviewed
contained an error. We attributed this condition to a lack of training on the Federal Travel
Regulation for principal officials and their staffs and to noncompliance with Departmental
guidance for the submission of principal officials’ travel vouchers to, and a central review
by, the Division of Fiscal Services, within the Office of the Secretary. As a result travelers:
(1) claimed the cost of air transportation for personal travel that was paid for by the
Government ($1,400) and used contract airfare rates or used the Government contract credit
cards to pay for personal travel; (2) received per diem and/or reimbursement for rental cars
while they were on leave or on personal time ($956); (3) received payment for costs that
they did not incur ($1,1 51); (4) claimed, without approval or justification, actual costs for
lodging and meals that exceeded per diem rates ($4,344); (5) did not receive approval for
non-Federal funding of travel costs ($3,958); and (6) were not fully reimbursed for travel
costs ($1,201).

In its response, the Department agreed with all four of our recommendations to correct these
conditions. Based on the response, we considered two recommendations resolved and
implemented and requested additional information on the remaining two recommendations.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.

Attachment
                                                                                     E-IN-MOA-018-96

               United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL




                                       AUDIT REPORT

Memorandum

To:        Assistant Secretary for Policy, Management and Budget




Subject: Audit Report on Followup of Travel by Principal Officials, U.S. Department
         of the Interior (No. 97–I-930)

                                      INTRODUCTION
This report presents the results of our followup review of issues presented in our February
1993 audit report “Travel Activity of Principal Officials, U.S. Department of the Interior”
(No. 93-I-450). We conducted the audit in response to a May 20, 1996, request from the
Assistant Secretary for Policy, Management and Budget. The objective of this review was
to determine whether the Department had satisfactorily implemented the recommendations
made in our 1993 audit report and whether any new recommendations were warranted.

BACKGROUND

As of June 19, 1996, the Department’s Office of Personnel had designated 107 individuals
within the Department as principal officials. The Department’s Office of Personnel defines
principal officials as follows: (1) Presidential appointees “with the advice and consent of the
Senate”; (2) non-career Senior Executive Service political appointees; (3) career members
of the Senior Executive Service who are directors or deputy directors; and (4) Schedule C
                                         1
and Schedule A political appointees. Principal officials, like all Federal employees, are
subject to the restrictions and conditions contained in the Federal Travel Regulation, issued
by the General Services Administration, when they travel on official Government business.
Title 41, Chapter 301, of the Code of Federal Regulations requires Federal employees to
travel in the “most effective and economical manner” when conducting official travel and
only when necessary “to accomplish the purposes of the Government. ”




1
Schedule C political appointees are individuals appointed to positions of a confidential or policy-determining
nature. Schedule A political appointees are individuals appointed to other positions.
PRIOR AUDIT RESULTS

Our 1993 audit disclosed that principal officials made personal or other unofficial trips at
Government expense by traveling circuitous routes which included visits to their home cities
or other locations while on temporary duty. As a result, the Department incurred about
$61,000 of travel costs that may not have been job related. Additionally, principal officials
inappropriately purchased tickets for unofficial travel at discounted Government rates, which
resulted in about $55,000 of subsidized airfwes being provided by the Department to
political organizations ($40,000) and to individual employees ($15,000).

We recommended that the Assistant Secretary for Policy, Management and Budget direct the
bureaus’ finance offices and the Departmental travel office to take the following actions: (1)
withhold the final paychecks of all departing bureau heads and other officials identified in
the report as being involved in questionable travel practices until appropriate reimbursable
travel costs are determined and travel costs that are unrelated to official business are repaid;
(2) review all travel vouchers submitted by principal officials for future travel and require
that itineraries be prepared to show all details of political or personal travel; (3) issue
guidance and perform followup reviews to ensure that officials who may engage in political
activities are complying with regulations governing the allocation of costs incurred for dual-
purpose travel; (4) require that subsidiary ledgers be maintained to account for all time and
costs related to dual-purpose travel; and (5) issue guidance informing all principal officials
of the travel regulations, including the requirement that travel vouchers must be signed by
supervisory officials.

SCOPE OF AUDIT

The scope of our followup review included an evaluation of actions taken to implement the
five recommendations made in our prior audit report. In addition, we reviewed travel by
principal officials who were employed by the Department as of June 1996. In that regard,
we determined that 107 principal officials submitted travel vouchers for 1,564 trips between
October 1, 1994, through April 30, 1996, incurring travel costs of approximately
$1.23 million. We reviewed travel by 67 of the 107 principal officials, who made 1,092
                                                                         2
(69.8 percent) of the 1,564 trips and incurred travel costs of $919,196. Only one of the trips
was reported as covering both partisan political travel and Government-related business
travel (dual-purpose travel). The 67 officials consisted of 15 Presidential appointees, 19 non-
career senior executives, 13 career senior executives, and 20 Schedule C appointees. We
selected for detailed analysis 518 vouchers, totaling $477,244, which represented 52 percent
of the $919,196 total travel costs of the 67 officials.3



2
We did not examine the Secretary’s travel because this travel is being reviewed by the General Accounting
Office.
3
 1f an individual submitted 10 or fewer vouchers during the period, we reviewed all of the vouchers submitted.
If the individual submitted more than 10 vouchers, we randomly selected 10 vouchers for review.

                                                      2
                                                                                                    I


This review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. We reviewed the Department of the Interior’s Annual Statement
and Report to the President and the Congress, required by the Federal Managers’ Financial
Integrity Act, for fiscal years 1994 and 1995 and determined that there were no reported
weaknesses within the objective and scope of our audit.

We conducted our review from July through October 1996 at the finance offices of the
Minerals Management Service in Herndon, Virginia; the U.S. Geological Survey and the
National Park Service in Reston, Virginia; and the Office of the Secretary, in Washington,
D.C. In addition, the U.S. Fish and Wildlife Service, the Bureau of Reclamation, the Office
of Surface Mining Reclamation and Enforcement, the Bureau of Indian Affairs, the Bureau
of Land Management, the former Bureau of Mines, and the former National Biological
Service provided copies of the vouchers that we had selected within their respective bureaus
for review.

                               RESULTS OF AUDIT
Of the five recommendations made in our prior report, we found that three recommendations
had been filly implemented and that two recommendations had been partially implemented.
Despite the actions to implement the recommendations, we found that principal officials
continued to submit travel vouchers which contained errors and which were not in fill
compliance with the Federal Travel Regulation. Although the total monetary amount of
these discrepancies was not significant ($1 3,010, or about 2.7 percent of the $477,244
tested), approximately one of every five vouchers we reviewed contained an error. We
attributed this condition to a lack of training on the Federal Travel Regulation for principal
officials and their staffs and to noncompliance with Departmental guidance for the
submission of principal officials’ travel vouchers to, and a central review by, the Division
of Fiscal Services, within the Office of the Secretary. As a result, travelers: (1) claimed the
cost of air transportation for personal travel that was paid for by the Government ($ 1,400)
and used contract airfare rates or used the Government contract credit cards to pay for
personal travel; (2) received per diem and/or reimbursement for rental cars while the
travelers were on leave or on personal time ($956); (3) received payment for costs that they
did not incur ($1,1 51); (4) claimed, without approval or justification, actual costs for lodging
and meals that exceeded per diem rates ($4,344); (5) did not receive approval for non-
Federal funding of travel costs ($3,958); and (6) were not filly reimbursed for travel costs
($1,201).

Recommendation 1. Withhold the final ~avchecks of all de~artin~ bureau heads and other
officials identified in this re~ort as beiruz involved in questionable travel uractices until
atmrom-iate reimbursable travel costs are determined and reuaid for travel costs that are
unrelated to official business.
Our prior report found that the Department incurred about $61,000 of travel costs by
principal officials for travel that may not have been job related, which consisted of the
following: (1) costs chiefly related to increased airfare because of indirect routing that
enabled officials to visit their home cities or other sites where there was no indication that
the purpose of visiting these destinations was related to Government business ($21,000) and
(2) costs associated with 57 trips in which the officials did not identify the purpose of and
provide detailed information on the travel ($39,800). In response to the draft of the prior
report, the Assistant Secretary for Policy, Management and Budget stated that the appropriate
bureaus would review all the questionable trips. In addition, the Assistant Secretary agreed
to withhold paychecks in those instances where it was appropriate to do so in accordance
with the United States Code (5 U.S.C. 5514 (a) (2)).

In the March 25, 1993, response to the final audit report, the Acting Assistant Secretary for
Policy, Management and Budget responded that “ [r]eviews of all the trips cited in the audit
report have been completed. ” Specifically, the response indicated that reviews of
questionable trips related to their respective organizations were completed by the Bureau of
Mines, the Bureau of Land Management, the Bureau of Reclamation, the Office of Surface
Mining Reclamation and Enforcement, the Office of the Secretary, and the U.S. Fish and
Wildlife Service. Based on the results of their reviews, the organizations concluded that
except for four instances in which travel costs of $1,882 were incurred, all of the trips cited
as questionable by our audit were for official business and that the amounts paid to the
travelers were appropriate. We could not determine the adequacy of the reviews by the
bureaus and offices because supporting documentation was not provided. However, based
on the actions outlined in the Acting Assistant Secretary’s response, we consider this
recommendation implemented.

Recommendation 2. Perform reviews of all travel vouchers submitted by principal officials
for future travel and reauire that itineraries be me~ared to show all details of ~olitical or
personal travel.

Our prior audit found that controls over official travel mixed with political and personal
travel needed to be improved to ensure that the Government was charged only for the
appropriate costs. The prior report noted that principal officials did not always travel in full
accordance with the Federal Travel Regulation and dual-purpose travel regulations. We
reported that principal officials authorized their own travel plans and lacked supervisory
controls over changes to the plans. We also noted that subordinates responsible for
processing travel vouchers may have been reluctant to challenge the travel costs claimed by
senior-level officials.

In addition to the travel costs cited in our discussion of Recommendation 1, our prior report
identified inappropriate cost savings to political organizations and individual employees
because principal officials purchased airfare for unofficial travel at discounted Government
rates. For example, of31 trips that were reported as dual purpose, our prior audit found that
the airline tickets were purchased at the Government discount rate. As a result, the
sponsoring political organizations benefited by paying their proportional share based on the


                                               4
lower cost Government airfares. The guidelines for dual-purpose travel require that the
sponsoring organization pay for airfares in advance of the dual-purpose travel at the
“standard commercial rates.” The guidelines also state, “[I]n no case should the government
ever pay more for official travel than the official government rate. ” As such, the sponsoring
political activity or the employee should buy the dual-purpose travel ticket at the commercial
rate, and the Government should be charged for its portion of the travel costs at Government
discount rates. Our prior audit also found that the process of reimbursement for dual-purpose
travel did not have a method that adequately accounted for sponsoring political organization
repayments on a trip-by-trip basis (for example, subsidiary accounting), which precluded a
determination as to whether the Government was fully reimbursed for dual-purpose travel
                            4
at the Government rates.

On April 2, 1993, the Assistant Secretary issued revised procedures for processing travel
vouchers submitted by bureau directors and deputy directors. The directive required that
these officials submit their travel vouchers to the Division of Fiscal Services for review and
approval. (Principal officials within the Office of the Secretary were already submitting their
vouchers to Fiscal Services.) However, our current audit found that the revised procedures
were not being followed. Some principal officials within the Minerals Management Service,
the Office of Surface Mining Reclamation and Enforcement, the Bureau of Reclamation, the
Bureau of Land Management, and the U.S. Fish and Wildlife Service were still submitting
their travel vouchers to the finance office within their respective bureaus. We also found that
Fiscal Services was not performing any separate reviews of vouchers submitted by the
principal officials. Therefore, although procedures had been developed, we consider the
recommendation partially implemented because some principal officials were not complying
with the procedures and because Fiscal Services was not performing reviews of all vouchers
submitted by principal officials.

Recommendation 3. Issue midance and perform followtm reviews to ensure that officials
who mav en~a~e in ~olitical activities are comdvin~ with regulations ~overnirw the
allocation of costs incurred for dual-tmmose travel.

Recommendation 4. Require that subsidiary ledgers be maintained to account for all time
and costs related to dual-tmmose travel.

Recommendation 5. Issue guidance informing all minci~al officials of the travel relations,
including the requirement that travel vouchers must be simed bv su~erviso rv officials.

Regarding Recommendations 3, 4, and 5, the Acting Assistant Secretary stated, in the
March 25, 1993 response, that a handbook had been developed for the use of noncareer
employees (including principal officials) and that a chapter in the handbook “addresses
personal travel, donated travel, and political travel.” Overall, the response indicated that the
three recommendations would be implemented by issuing the handbook, including the


4
Politically related costs of trips were estimated, paid in advance by the sponsoring organization, and adjusted
after the travel vouchers were prepared, and support for the adjustments was not adequately summarized.

                                                       5
provision that a copy would be provided “to each noncareer employee of the Department as
well as to the principal secretarial/confidential assistant staff person of each noncareer
official,” and through training. The response also stated that it was anticipated that the
handbook “will be issued to noncareer employees by April 1, 1993,” and that “ [a] series of
training programs on ethics and conduct, including travel matters has begun.”

Our current audit found that a handbook for use by noncareer employees had been developed
and distributed to appropriate officials in June 1993. The handbook cites the requirement
that “precise records” should be kept of the amount of time spent on political and official
activities while on dual-purpose travel. In addition, any vouchers that contain dual-purpose
travel are required to be reviewed by the Deputy Associate Solicitor for General Law to
ensure that the costs are allocated correctly. We found that the one dual-purpose trip
included in the scope of our review was performed in accordance with the handbook. Based
on the information contained in and the actions required by the handbook, we consider
Recommendations 3 and 4 fully implemented.

Regarding Recommendation 5, the handbook for noncareer employees provides a general
overview of political, donated, and personal travel, but it does not provide specific
instructions on complying with the policies and procedures of the Federal Travel Regulation.
We believe that training on the travel regulations is necessary to help ensure that principal
officials comply with the regulations. In that regard, we found that the series of ethics and
conduct training provided to principal officials covered primarily ethics issues, acceptance
of travel funded by non-Federal sources, use of frequent flyer programs, and official travel
mixed with political and personal travel. However, specific training on travel policies and
procedures had not been provided. During our current audit, several principal officials told
us that they were not aware of the requirements of the Federal Travel Regulation. Therefore,
we consider Recommendation 5 partially implemented based on the Department’s issuance
of the handbook and the related training provided.

We believe that the two main causes of the errors we found in travel vouchers during our
current audit were the need for additional training on the Federal Travel Regulation and the
need for a single entity to review the travel vouchers. Specifically, we found that principal
officials: (1) took indirect routes that enabled them to visit home cities or other sites that
may have been for personal convenience (9 instances); (2) improperly claimed per diem
while on annual leave (11 instances); (3) were reimbursed for travel costs which were not
incurred or which were paid by the Government (7 instances); (4) claimed actual costs for
lodging and for meals and incidental expenses that exceeded prescribed per diem rates
without obtaining prior approval or providing adequate justification (92 instances); (5) did
not report that travel costs were paid by a non-Federal source (12 instances); and (6) were
not filly reimbursed for travel costs (16 instances).

         Indirect Routing for Personal Travel. The Code of Federal Regulations (41 CFR
301 -2.5(b)) states that an employee on official travel who travels by an indirect route for
personal convenience or who interrupts travel by a direct route is required to pay the
additional costs incurred. In addition, the traveler is not authorized to use contract airline


                                              6
rates while on personal travel or the Government contract credit card to purchase tickets for
air transportation for personal travel. However, we identified nine instances in which
travelers were routed indirectly to their ultimate destination to accommodate personal travel
but for which they: (1) did not reimburse the Government for the additional cost of $ 1,400;
(2) used contract airfare rates; or (3) used their contract credit cards to pay for their personal
travel.

For example, one traveler stationed in Washington, D. C., who frequently visited in the
Minneapolis/St. Paul, Minnesota, area, had personal travel mixed with official business for
8 of the 10 trips we reviewed. On one trip, the traveler had official business to conduct in
Ledyard, Connecticut, on a Tuesday. On the Friday afternoon before the official travel, the
traveler flew from Baltimore/Washington International Airport and spent the weekend in
Minneapolis/St. Paul. On Monday, the traveler purchased a Government rate airline ticket
on his Government contract credit card and flew from Minneapolis/St. Paul to Washington
National Airport, claiming the cost on his voucher and stating that he was in Minneapolis “on
personal leave - original personal return flight was canceled - was necessary to return to DC
to make flight for official business - total ticket price incurred was no additional cost to the
Government.” On Monday, the traveler also flew from Washington National Airport to
Providence, Rhode Island, and drove to Ledyard.

When we requested justification for the Government’s paying the traveler’s return flight
from Minneapolis/St. Paul, the traveler said that he was on personal leave when he was
contacted regarding the need for official travel to Ledyard and that it was more cost effective
to fly from Minneapolis/St. Paul to Washington, D. C., and on to Providence than to fly
directly from Minneapolis/St. Paul to Providence. However, we found that the reservation
for the traveler’s round-trip air transportation from Washington National Airport to
Providence was made 2 weeks before the trip took place and that the ticket was issued
through the Government’s travel contractor and billed to a Government account at a total
cost of $462. Therefore, the traveler was incorrect in stating that “total ticket price incurred
was no additional cost to the Government” because the indirect travel increased the cost of
transportation by $356 ($818 minus $462). We also determined that the cost to fly from
Minneapolis/St. Paul to Providence and then back to Baltimore/Washington International
Airport would have been $319. As such, the traveler could have saved the Government an
additional $143 ($462 minus $319) by flying directly to Providence instead of returning to
Washington, D.C.

Another traveler flew on a Wednesday from Washington National Airport to Las Vegas,
Nevada, and conducted official business in St. George, Utah, which concluded on Thursday.
Instead of returning to Washington National Airport on Friday, the traveler flew to Little
Rock, Arkansas, for a personal weekend and then returned to Washington National Airport
on Sunday night. The traveler obtained the round-trip air transportation tickets, including
the trip to Little Rock, at Government rates from the Government’s contracted travel agency
at a total cost of $486. On the voucher, the traveler stated, “Ticket home previously
purchased by employee at no cost to gov[ernment].” However, the round-trip airfare from
Washington National Airport to Las Vegas was $298 at the Government rate. Therefore,


                                                7
the Government incurred an additional $188 because of the rerouted air transportation.
When asked about this trip, the traveler said that the Government airfare from Las Vegas to
Little Rock was equal to or less than a ticket from Las Vegas to Washington D. C.; however,
the traveler’s voucher and this statement did not make the relevant comparison between the
actual costs and the reconstructed costs if the trip had not been rerouted.

           Leave During Official Travel. We identified 49 instances in which travelers took
leave or stayed over a weekend for personal preference while on temporary duty. In 10 of
these instances, per diem that the traveler was entitled to could not be accurately computed
because the traveler did not specify the exact hours of departure from and return to duty
status. In 11 other instances, the travelers inappropriately claimed $644 in per diem while
on personal time. For example, one of the travelers was on official travel and claimed meals
and incidental expense per diem for 4 1/2 days. We determined that the traveler was on leave
for 1 % days. Therefore, the traveler was entitled to only 2 ?4 days per diem. (The traveler
improperly claimed a full day’s per diem on the first travel day, whereas the traveler was
entitled to only a half day’s per diem.) In addition, incorrect per diem amounts were used
because the traveler did not cite the city where official business was conducted. In total, the
traveler overclaimed $88 for meals and incidental expenses. After our inquiry, the traveler
reimbursed the Department for the overpayment.

Another traveler on two separate trips stayed over the weekends and claimed meals and
incidental expenses of $34 each day for Saturday and Sunday instead of returning to
Washington, D. C., when official business ended on Friday. For these two trips, the traveler
was overpaid a total of $136.

We also identified four instances, with additional costs totaling $312, in which travelers
obtained rental cars while on official travel and used them during personal leave but did not
properly allocate the cost of the rental cars for business versus personal use. For example,
one traveler rented a car for 4 days and claimed the full cost of $193 for official business.
We determined that the traveler was on leave for 1 !4 of these 4 days. Thus, the traveler was
overpaid $58 for personal use of the rental car. After our inquiry, the traveler reimbursed the
Department for the overpayment.

          Costs Not Incurred. In seven instances, we found that travelers were reimbursed
for travel costs which were not incurred or which had been paid by the Government. For
example, one traveler claimed $135 for airfare from the San Diego, California, airport to
Washington National Airport and submitted a passenger receipt for the flight. We found that
there was originally a round-trip ticket from Washington, D. C., to San Diego and return,
which was issued by the Department’s contracted travel agency and charged to the
Department’s corporate account. However, the traveler returned at a different time than was
scheduled, exchanged the ticket issued by the contracted travel agency for another ticket, and
paid the additional fare of $11 on his Government-issued credit card. The traveler was
reimbursed for the $135. Therefore, the traveler was overpaid by $124. The traveler said
that this was a clerical error and refunded the overpayment.



                                               8
On three other occasions, travelers claimed reimbursement for air transportation, even though
the tickets for this transportation were issued by the Department’s contracted travel agencies
and charged to Government corporate accounts. Two travelers repaid the $381 overpayment,
and the other traveler said that she was “checking her records” before she would repay the
$406 overpayment.

In three related instances, three travelers stayed in a hotel in Prudhoe Bay, Alaska, where the
lodging was charged to a U.S. Fish and Wildlife Service corporate account. However, all
three travelers claimed reimbursement ($75 each by two of the travelers and $90 by the third)
for the lodging on their vouchers. Afler our inquiry, all three travelers reimbursed the
Department.

In some of these instances, the administrative assistants of the travelers prepared the
vouchers based on records provided by the travelers, and the assistants said that they claimed
the costs based on the assumption that the travelers had incurred all of the expenses.
However, the travelers did not correct these inaccuracies when they signed their vouchers.

           Unapproved Actual Costs. We noted 171 instances in which travelers claimed
actual costs for lodging or meals and incidental expenses that exceeded prescribed per diem
rates. However, in 92 instances, for a total of $4,344, the travelers did not obtain prior
justification and approval or they obtained after-the-fact approval without adequate
justification. The Federal Travel Regulation (41 CFR 301-8) allows actual expenses to be
reimbursed in special or unusual circumstances. However, employees are responsible for
requesting approval for actual expense reimbursement and for providing appropriate
justification to support their request. Normally, travel on an actual expense basis should be
 authorized in advance, and the maximum daily rate should be stated in the travel
 authorization. The Federal Travel Regulation allows for after-the-fact approval if the
 approval is adequately justified and the authorization states that actual expenses have been
 specifically approved for reimbursement. Further, the justification should be documented
 on or with the voucher.

According to the Federal Travel Regulation, actual reimbursement for meals and incidental
expenses is limited to 150 percent of the prescribed meals and incidental expenses rate for
that specific site, and total daily reimbursement for actual expenses is limited to 150 percent
of the applicable maximum per diem rate for that specific site. However, we found one
instance in which the claimed meals and incidental expenses exceeded the 150 percent
limitation and seven instances in which the claimed total daily costs exceeded the 150
percent limitation. For example, one traveler went to Vail, Colorado, in February 1996,
where the per diem was $166 for lodging and $38 for meals and incidental expenses. The
maximum allowable reimbursement for meals and incidental expenses was $57 per day (150
percent of $38). The traveler claimed $75 and $85 for meals and incidental expenses for 2
separate days, which is a total of $46 more than the maximum allowable reimbursement.

We also noted that the Department’s bureaus and offices were not consistent in how they
computed actual reimbursements for lodging and meals and incidental expenses.


                                               9
Specifically, some bureaus and offices reimbursed travelers more than 150 percent of the
lodging amount as long as the total amount claimed was less than 150 percent of the
prescribed per diem rate, while other bureaus and offices limited reimbursement of actual
lodging expenses to 150 percent of the prescribed lodging amount. For example, if the daily
per diem rate listed in the Federal Travel Regulation for an area was $130 ($100 for lodging
and $30 for meals and incidental expenses), the maximum daily amount of reimbursement
for the same area would be $195 (150 percent times $130). However, some bureaus and
offices, based on their computations, would have reimbursed the traveler only $180 as
follows: a traveler claims $195 per day based on $165 for lodging and $30 for meals and
incidental expenses. However, the amount claimed for lodging would be reduced to $150
based on application of the 150 percent to the $100 prescribed lodging portion of the per
diem rate, and the amount allowed would total $180 ($150 for lodging plus $30 for meals
and incidental expenses). Since the Federal Travel Regulation limits actual reimbursement
for meals and incidental expenses and for total daily reimbursement of actual expenses to
150 percent of the prescribed rates, we believe that the Department should develop guidance
consistent with the regulations in the calculation of reimbursements for actual subsistence
expenses.

          Travel Paid by Non-Federal Source. We identified 19 instances in which travel
costs were paid by a non-Federal source. In 12 instances, the travelers did not comply with
the Federal Travel Regulation (41 CFR 304-1) or the Departmental Manual (374 DM 5.7),
both of which require prior written approval after a determination of potential conflict of
interest and the preparation of Form DI-2000, “Report of Payments Accepted From Non-
Federal Sources Under 31 U.S.C. Section 1353.” In addition, the payments were not
reported to the Department’s Ethics Office. Therefore, the Department did not report eight
instances involving payments of more than $250 per event to the Office of Government
Ethics.

          Unreimbursed Travel Costs. We identified 16 instances in which travelers were
not reimbursed the full amount they were entitled to receive ($1,201). These underpayments
occurred because of errors in the voucher preparation and review process. For example, one
traveler purchased an airline ticket for an official trip on his Government charge card but did
not claim the $144 airfare on the travel voucher. We informed the travelers or their
administrative assistants of these underpayments when we determined that additional
reimbursement was due the travelers.

Recommendations

We recommend that the Assistant Secretary for Policy, Management and Budget ensure that:

     1. Training is provided on travel requirements to all principal officials and their
secretarial/confidential assistants.

     2. Periodic reviews are conducted of the travel activities of principal officials in order
to ensure their compliance with travel regulations.

                                              10
     3. Guidance is issued to bureau finance offices on how actual reimbursements should
be computed.

     4. The amounts of money identified in this audit as having been claimed incorrectly
and reimbursed to principal officials are recovered.

Department of the Interior Response and Office of Inspector General
Reply

The March 20, 1997, response (Appendix 2) from the Assistant Secretary for Policy,
Management and Budget indicated concurrence with and described actions taken or planned
to address the four recommendations. In addition, the response included the section “General
Comments,” which took issue with how some of the information in the report was presented.
Based on the response, additional information is needed for Recommendation 1, and
Recommendations 2,3, and 4 are considered resolved and implemented (see Appendix 3).

Recommendation 1. Concurrence indicated.

The response stated that the Department has, since 1993, “made training on travel and travel-
related issues available on at least 55 separate occasions” and that a list of the training was
provided to the Office of Inspector General in December 1996. The response also stated that
the Department had identified “four target audiences for training on travel-related
requirements: (1) senior officials, (2) the individuals responsible for preparing senior
officials’ travel documentation, (3) career employees who travel, and (4) the individuals
responsible for preparing travel documents for career employees.” The response fiuther
stated that the “Departmental Learning Center will work with the Office of Financial
Management and the Interior Service Center to meet the specific requirements of the targeted
audiences through classroom, and then long distance, learning.”

Regarding the 55 training sessions conducted since 1993, we were told that these sessions
were briefings on ethics and conduct. Specifically, the Deputy Agency Ethics Staff Officer,
one of the two instructors, told us during our audit that the issues pertaining to travel
included in his 13 sessions with principal officials only “related to acceptance of non-Federal
funding and to mileage programs offered by the airlines and other commercial companies.”
He also stated that “training on travel was discontinued during the streamlining efforts.”
Also, the Ethics Staff Training Coordinator, who was the other instructor for the remaining
42 sessions, confirmed that the sessions were ethics briefings and were not overall training
on travel policies and procedures.

Although we acknowledge the Department’s new efforts to provide travel-related training
to the four target audiences, information as to when the training would be scheduled or
completed was not provided. As such, we are requesting that the Department provide the
additional information.



                                              11
Recommendation 2. Concurrence indicated.

The response stated that the April 2, 1993, policy directive that required bureau directors and
deputy directors to submit their travel vouchers to the Division of Fiscal Services for review
and approval “was extended to all senior officials within the Department (defined to include
all political or non-career appointments to Executive Level and Senior Executive Service
[SES] pay grades, including career appointments to the SES who are bureau directors and
deputy directors)” on August 23, 1996. The response also stated, “We believe that the
implementation of this policy directive will ensure that the travel activities of principal
officials are reviewed on an ongoing basis. ”

Although the response indicated concurrence with the recommendation, it just expanded the
scope of the previous policy directive. Our current audit determined that this policy was not
being followed. Accordingly, we request that management indicate the nature of the
procedures to ensure that periodic review of travel vouchers are conducted. As such, we are
requesting that the Department provide the additional information.

Recommendations 3 and 4. Concurrence indicated.

The response noted that guidance on how actual reimbursements should be computed was
issued on February 3, 1997 (Recommendation 3), and that amounts incorrectly claimed and
reimbursed to principal officials of $3,789 had been collected (Recommendation 4). Based
on these actions, we consider these two recommendations resolved and implemented.

General Comments on Audit Report

The response also stated that our report contained “several narrative references which, while
perhaps factually correct, are misleading and somewhat inflammatory.” By way of example,
as to our statement that “approximately one of every five vouchers we reviewed contained
an error, ” the response noted that our report, “ [t]o be accurate . . . should provide a
clarification to readers that most of the “errors” thus identified did not equate with a finding
that the Department was owed funds as a result” but referred to “documentation deficiency
in the travel voucher package (failure to obtain written authorization to incur actual
expenses).” (Emphasis in original.) In addition, the response stated that “the drafi identified
$13,010.. . of which only $3,789 . . . was found to be owed the Department” and that “the
remainder generally related to expenses which did not have adequate documentation, but
which were not otherwise questioned by the IG [Inspector General]. ”

We have not clarified the report further because we believe that our report fairly and
accurately presents the nature of all of the errors (qualitative and quantitative) we noted in
our review. Regarding the approximate $9,000 ($13,010 less $3,789) “not otherwise
questioned by the IG,” the errors which occurred most frequently (92 instances for $4,344)
were that principal officials did not adequately justi~ and/or obtain timely approval for
lodging and/or meals and incidental expenses that were in excess of prescribed per diem
rates. These errors did not involve simply a “documentation deficiency,” as described in the

                                               12
response, but noncompliance with the Federal Travel Regulation. We did not recommend
that the Department collect the $4,344 related to these 92 instances from the travelers
because, when informed of the noncompliance, travelers sought to obtain after-the-fact
approval. The balance of the audit exceptions pertained to travelers who did not comply with
provisions of the Federal Travel Regulation, which required them to obtain approval for
non-Federal funding of travel costs ($3,958) and for underclaiming their travel costs. We
did not recommend repayment in these two instances because the nature of the exception
does not require repayment.

The response further stated: “ [T]ruly significant progress has been made since the earlier
audit (Report No. 93-1-450). . . . In particular the recommended adjustments of
approximately $3,800 in the current review compare favorably with the $61,000 in required
adjustments identified in the previous audit.” Also, the response stated: “ [T]he adjustments
required in the previous audit represented nine percent of the total value of the travel
vouchers reviewed, while the adjustments in the current review were but eight tenths of one
percent of the total value. By any objective measure, these results would suggest that real
improvements in the Department’s travel process have occurred. ” (Emphasis in original.)

We do not believe that the comparison in the response is valid because the amounts of
$61,000 and $3,800 do not directly relate to the same conditions. For example:

      - The $61,000 cited in our prior report was related to travel costs that may not have been
work related because the purposes and justifications for the trips and destinations were not
adequately documented on the travel vouchers. However, after reviewing all of the cases
related to the $61,000 cited in our prior report, the Department concluded that only $1,882,
which was related to four instances of improper costs claimed, was determined to have been
for unofficial and/or personal travel. Thus, this was the amount that the Department
ultimately collected from the travelers.

     - Of the actual $3,789 collected from travelers as a result of this review, $2,356 related
to 20 instances of improper travel costs claimed for unofficial and/or personal travel and
$1,433 related to 10 instances of incorrectly claimed travel costs.

If we were to measure improvement based on comparative results, we believe that the $1,882
(four instances) collected as a result of the prior audit (of $664,000 worth of vouchers
reviewed) should be compared with the $2,356 (20 instances) collected as a result of this
review for improper travel costs claimed for unofficial and/or personal travel (of $477,244
worth of travel vouchers reviewed). In addition, we identified $1,433 (10 instances) of
incorrectly claimed travel costs during the current review. As such, this comparison would
seem to indicate that there has not been any significant improvement in travel by principal
officials since the previous audit. Nevertheless, our report clearly places the dollar amount
in perspective by stating, in the Results of Audit section, that the monetary impact of the
errors noted “was not significant. ”




                                               13
In accordance with the Departmental Manual, (360 DM 5.3), we are requesting your written
response to this report by August 18, 1997. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of Departmental personnel in the conduct of our audit.




                                              14
                                                                              APPENDIX 1
                                                                               Page 2 of 2




           Recommendations                              Status of Corrective Actions

4. Require that subsidiary ledgers be             Implemented. The handbook, which has
maintained to account for all time and            been issued, addresses political travel and
costs related to dual-purpose travel.             requires that “precise records” be
                                                  maintained of the time spent on political
                                                  and official activities while employees are
                                                  on dual-purpose travel.

5. Issue guidance informing all principal         Partially implemented. Guidance was
officials of travel regulations, including        provided; however, current noncareer
the requirement that travel vouchers must         employees and their staff assistants had
be signed by supervisory officials.               not received sufficient training on travel
                                                  requirements.




                                             16
                                                                                   APPENDIX 2
                                                                                   Page 1 of-4

                 United States Department of the Interior
                                   OFFICE OF THE SECRETARY
                                      Washington. D.C. 20240

                                          M/Vi   20 1997
Memorandum

To:            Wilma Lewis
               Inspector
                  .      General

From:           Bonnie R. Co
                Assistant Sec -
                                     0(?/
                                       “ y. Management and Budget
                             +\
Subject:        Response to I&aft Audit Report on Travel of Principal Officials
               (Report No. E-IN-MOA-01 8-96)

I would like to take this opportunity to thank you for conducting the subject follow-up review of
travel by principal officials, which I requested on May 20, 1996.

Judging by the results of the followup review, I am pleased to see that truly significant progress
has been made since the earlier audit conducted at the end of the previous Administration. In
particular, the recommended adjustments of approximately $3,800 in the current review
compare favorably with the $61,000 in required adjustments identified in the previous audit.
The $3,800 which you identified as owed to the Department from 22 different indi~idual.s has
been filly refmded.

Viewed from another perspective, the adjustments required in the previous audit represented nine
percent of the total value of the travel vouchers reviewed. while the adjustments in the current
review were but eight tenths of one percent of the total value. By any objective measure. these
results would suggest that real improvements in the Department’s travel process have occurred.

While progress has been made, I agree with your assessment that more needs to be done,
particularly in the training of travel voucher preparers. As we know, the many complexities
associated with travel by senior officials, coupled with the high levels of turnover. create a need
for continual training in this area. We have already conducted 55 briefings on travel and related
topics since 1993, and will brief new appointees, their administrative staffs. and other senior
officials as the need arises in the fiture. The concise new travel handbook for political
employees will be a real help in this area as well.

Our responses to the four recommendations contained in the draft report are attached.

Once again. I very much appreciate your help in reviewing this very important area. If yOLI wish
to discuss our response further. please call me.

Attachment



                                                 17
                                                                          APPENDIX 2
                                                                          Page 2 of 4




I.     General Comments

While the tone of the draft report is constructive overall, there are several narrative
                               n< factuallv. correct. are misleading and somewhat
refenmces -which. ~TJhi~~ perh~~-
inflammatory. An example may be noted in the following extract from paragraph I on
page 6:

       “Although the total monetary amount of the discrepancies was not significant...
       approximately one of eveyfive vouchers we reviewed contained an error”
       (Emphasis added).

To be accurate, the above narrative should provide a clarification to readers that most of
the “errors” thus identified did not equate with a finding that the Department was owed
finds as a result. In fact, 63% of the “errors’. involved a documentation deficiency in the
travei voucher package (failure to obtain written authorization to incur actual expenses).
and another 11% involved an overpayment by the principal officials.

 In our view, statements of the type cited above detract from the very real improvements
in the travel process which have occurred since the last audit. In this regard. the 1993
audit involved an examination of 1,083 vouchers with a nominal value of $664,000, and
found that adjustments of $61,000 (or 9Yo) were necessary. The current review examined
518 vouchers with a nominal value of $477,244, and found that adjustments of $3,789 (or
.8 of 1 ‘Yo) were required. By any objective standard, it would be necessary to state that
very substantial progress has been noted.

Similarly, the draft identified $13,010 (or 2.7% of the audit sample) as the value of all
travel voucher imperfections, of which only $3,789 (or.8 of 1 Yo] was found to be owed
to the Department. The remainder generally related to expenses which did not have
adequate documentation, but which were not otherwise questioned by the IG.


II.    Response to Draft Report Recommendations

1.     Training is Provided on Travel Requirements to All Principal Officials and
       Their Secretarial/Confidential Assistants

Rules governing the requirements for travel of principal officials are quite complex, and
frequently require knowledge and familiarity with one or more of the following:

       a.      The Federal Travel Regulation (applies to all employees)

       b.      Executive Office of the President Guidelines Relating to Mixed Travel (for
               political appointees)



                                            18
                                                                                        APPENDIX 2
                                                                                        Page 3 of 4
                      c.      Rules Governing Donated Travel (for all employees)


               Because of these complexities. tile Depafimellt ilas. sil~ce 1993. nladetrainin gontravel
               and travel-related issues available on at least 55 separate occasions. These training
               sessions were aimed at the various components of the population of principal officers
[NOTE:         (i.e., political appointees. noncareer SES, and the respective administrative staffs who
ATTACHMENT A   schedule travel and prepare travel vouchers). A more complete summary listing of the
NOT INCLUDED   training sessions which included travel topics is provided in Attachment A. This list was
BY OFFICE OF   also provided to the IG in December, 1996.
INSPECTOR
GENERAL . ]
               We have identified four target audiences for training on travel-related requirements: (1)
               senior officials, (2) the individuals responsible for preparing senior officials’ travel
               documentation, (3) career employees who travel, and (4) the individuals responsible for
               preparing travel documents for career employees. The Departmental Learning Center
               will work with the OffIce of Financial Management and the Interior Service Center to
               meet the specific requirements of the targeted audiences through classroom. and then
               long distance, learning.

               In addition to the formal training, a series of publications, aimed at communicating
               Departmental policies relating to various aspects of travel. were prepared and distributed.
               These included: a Handbook for Political Employees (distributed in .lune. 1993 ); Guide
               for Employee Temporary Duty Travel (February, 1993); Do’s and Don'ts of Travel for
               Political Appointees(June, 1996); and Travel Primer for Political Employees (January,
               1997).

               To ensure that all DOI offices have access to the Department’s policies and procedures
               governing travel, the Office of Financial Management created a home page in March,
               1996, which contains all current Financial memoranda (including travel). Additionally.
               the home page is linked to the official domestic and international per diem tables which
               are maintained by GSA and the Department of State. Thus, all Departmental employees
               now have access to official per diem rates on a real time basis.

               In short, the Department has undertaken an ambitious effort to ensure that principal
               officials receive the necessary training to comply with Departmental. and Federal
               requirements relating to travel, and have access to the necessary information. We expect
               to build on these programs in the future by providing additional training on travel
               voucher preparation through the Departmental Learning Center to meet the needs of both
               new and existing employees.

               2.     Periodic Reviews Are Conducted of the Travel Activities of Principal
                      Officials in Order to Ensure Their Compliance with Travel Regulations

               As noted in the draft report, the Assistant Secretary-Policy, Management and Budget,
               issued a policy directive on April 2, 1993. requiring bureau directors and deputy directors




                                                        19
                                                                        APPENDIX 2
                                                                        Page 4 of 4


to submit their travel vouchers to the Division of Fiscal Services for review and approval.
On August 23, 1996, the requirement to have travel vouchers be independently reviewed
by the Fiscal Office within the Interior Service Center. was extended to all senior officials
within the Department (defined to include all politicai or non-career appointments to
Executive Level and Senior Executive Service pay grades, including career appointments
to the SES who are bureau directors and deputy directors).

We believe that the implementation of this policy directive will ensure that the travel
activities of principal officials are reviewed on an ongoing basis by an independent
source for compliance with applicable Departmental and Federal travel regulations. Thus
we consider this recommendation implemented.


3.     Guidance is Issued to Bureau Finance Offices on How Actual
       Reimbursements Should be Computed.

On December 27, 1996, the Federal Travel Regulation, [at41 CFR3 01 -S.3(b)(2)] was
changed. to specifically allow lodging expenses up to the amount of the daily maximum
rate ( 150°/0 of total per diem) minus the authorized M&IE allowance. This change was
implemented as Departmental policy by Financial Administration Memorandum No. 97-
004, (IIG. 1 ). dated February 3, 1997. Prior to this amendment the Federal Travel
Regulation did not explicitly state that all amounts in excess of the M&IE allowance
could be applied toward lodging, giving rise to the differing bureau interpretations cited
in the draft audit report. Thus we consider this recommendation to be implemented.


4.     The Amounts of Money Identified in this Audit as Having Been Claimed
       Incorrectly and Reimbursed to Principal Officials are Recovered.

Based on the listing of the 33 trips for which Departmental reimbursement was
recommended by OIG, we have collected the total amount of $3.789.36. Based on
discussions with OIG, this represents the total amount which was to be recovered by the
Department. Thus we also consider this recommendation to be implemented.




                                          ’20
                                                                  APPENDIX 3




      STATUS OF AUDIT REPORT RECOMMENDATIONS


    Findings/
Recommendations
   Reference              Status                     Action Required

       1          Management concurs;      Provide schedule of training classes
                  additional information   and target dates for implementing
                  needed.                  the recommendation.

                  Management concurs;      Provide procedures to ensure that
                  additional information   periodic reviews of travel vouchers
                  needed.                  are conducted.

    3and4         Implemented.             No further action is required.




                                   21
Sending written documents to:                               Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       1-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Rezion

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
